         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Special Report



       Congressionally Requested
       Inquiry Into EPA’s Handling of
       Freedom of Information Act
       Requests
       Report No. 11-P-0063

       January 10, 2011
Report Contributors:                           Christine Baughman
                                               Allison Dutton
                                               Ryan Patterson
                                               Russell Moore
                                               Elizabeth Grossman
                                               Eric Lewis




Abbreviations

EPA          U.S. Environmental Protection Agency
FOIA         Freedom of Information Act
OIG          Office of Inspector General
                       U.S. Environmental Protection Agency                                                  11-P-0063
                                                                                                       January 10, 2011
                       Office of Inspector General


                       At a Glance
                                                                             Catalyst for Improving the Environment


Why We Did This Review              Congressionally Requested Inquiry Into
Two members of Congress
                                    EPA’s Handling of Freedom of Information Act
asked the Inspector General to      Requests
review how the U.S.
Environmental Protection             What We Found
Agency (EPA) handles requests
under the Freedom of                We concluded that EPA does not have a process to filter FOIA requests by
Information Act (FOIA). They        political appointees. EPA policy permits releasing information at the lowest
were particularly interested in     practicable level. Generally, political appointees are not involved in deciding
whether and, if so, the extent to   FOIA requests, unless there is denial of information. We found exceptions, but
which political appointees are      political appointees were usually involved only to sign denials or partial denials.
made aware of information           FOIA coordinators provided regular status reports on the processing of FOIA
requests and have a role in         requests to managers at various levels within the office. In 3 of the 11 offices we
request reviews or                  reviewed, those managers were political appointees. However, none of the offices
decisionmaking.                     required routine review of FOIA requests by a political appointee.

Background                          In response to comments from EPA staff on the draft report, we made some
                                    minor wording changes.
FOIA gives the public the right
to ask for records possessed by
federal government agencies.
Under EPA regulations, the
head of an office, or that
individual’s designee, is
authorized to grant or deny any
request for EPA records. The
heads of EPA’s 23 major
offices are political appointees.


For further information,
contact our Office of
Congressional, Public Affairs
and Management at
(202) 566-2391.

The full report is at:
www.epa.gov/oig/reports/2011/
20110110-11-P-0063.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                     OFFICE OF
                                                                                INSPECTOR GENERAL




                                        January 10, 2011

MEMORANDUM

SUBJECT:       Congressionally Requested Inquiry into EPA’s Handling of
               Freedom of Information Act Requests
               Report No. 11-P-0063


FROM:          Wade T. Najjum
               Assistant Inspector General for Program Evaluation

TO:            Malcolm D. Jackson
               Assistant Administrator for Environmental Information and
                 Chief Information Officer


This is our report on the subject review conducted by the Office of Inspector General (OIG) of
the U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

The estimated cost of this report, calculated by multiplying the project’s staff days and expenses
by the applicable daily full cost billing rates in effect at the time, is $113,770.

Action Required

Because this report contains no recommendations, you are not required to respond to this report.
However, if you submit a response, it will be posted on the OIG’s public website, along with our
memorandum commenting on your response. Your response should be provided as an Adobe
PDF file that complies with the accessibility requirements of section 508 of the Rehabilitation
Act of 1973, as amended. The final response should not contain data that you do not want to be
released to the public; if your response contains such data, you should identify the data for
redaction or removal. We have no objections to the further release of this report to the public.
We will post this report to our website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Eric Lewis, Director,
Special Reviews, at 202-566-2664 or lewis.eric@epa.gov; or Russell Moore, Project Manager, at
202-566-0808 or moore.russell@epa.gov.
Purpose
            On August 23, 2010, Senator Charles E. Grassley, Ranking Member of the U.S.
            Senate Committee on Finance, and Congressman Darrell Issa, Ranking Member
            of the House Oversight and Government Reform Committee, requested the
            Inspector General, U.S. Environmental Protection Agency (EPA), to review
            EPA’s Freedom of Information Act (FOIA) office to determine whether political
            appointees are made aware of information requests and have a role in reviews or
            decisionmaking related to those requests. They wanted to know whether EPA was
            engaged in political filtering of information.

Background
            FOIA gives the public the right to ask for records possessed by federal
            government agencies. In 2002, EPA published regulations describing how it will
            process FOIA requests. One section provides that the head of an office, or that
            individual’s designee, is authorized to grant or deny any request for a record of
            that office or other EPA records when appropriate. This regulation is consistent
            with a 1983 EPA delegation of authority; it gives the heads of major offices
            authority to make initial determinations related to FOIA requests, but allows them
            to delegate their authority (1) down to the division director level if EPA is
            denying release of all or part of the records based on a FOIA exemption, and
            (2) to an even lower level if all of the requested records are being released.

            Including the Office of the Administrator, EPA has 23 major offices. The heads of
            these offices, as well as some of their deputies, are political appointees. In total,
            EPA has identified 67 positions that are filled by political appointees. These
            positions are subject to noncompetitive appointment because the duties may
            involve advocacy of administration policies and programs, and the incumbents
            usually have a close and confidential working relationship with the Agency or
            other key officials.

            EPA has assigned staff to manage its FOIA process, including a national FOIA
            officer in the Office of Environmental Information, a FOIA officer in each region,
            and a FOIA coordinator for each of the major program offices. To track the FOIA
            requests, EPA uses an information management system called “FOIAXpress.”
            Overall, EPA’s FOIA process is decentralized. Each of the 23 major offices has
            established its own internal procedures for handling FOIA requests.

Scope and Methodology
            We conducted this review from September through December 2010. The work
            centered on evaluating a sample of 50 FOIA requests to determine who was
            involved in processing them. These requests were selected from a universe of 157
            requests EPA received between January 21, 2009, and August 31, 2010, that



11-P-0063                                                                                      1
            concerned one of the following subjects the Office of Inspector General (OIG)
            believed might be of particular interest to EPA political appointees:

                   BP oil spill
                   Climate change
                   Coal ash
                   Environmental justice
                   Hydraulic fracturing, or fracking
                   Mountaintop mining

            We identified the universe of requests by searching FOIAXpress. We reviewed
            the documentation in FOIAXpress associated with the 50 sample items. Except
            for inquiring about missing documentation, we did not evaluate the accuracy of
            the data in FOIAXpress. We interviewed the FOIA officer or FOIA coordinator
            for the following 11 organizations that processed the 50 requests under review:

                   Office of the Administrator
                   Office of Air and Radiation
                   Office of Enforcement and Compliance Assurance
                   Office of Inspector General
                   Office of Solid Waste and Emergency Response
                   Office of Water
                   Region 1
                   Region 3
                   Region 4
                   Region 5
                   Region 6

            For some requests, we also interviewed other EPA employees who were involved
            in responding. The interviews included a review of FOIA procedures for that
            office. In addition, we interviewed the EPA national FOIA officer.

            We did not test the internal controls related to processing FOIA requests. Controls
            were evaluated during a prior review by the OIG. The related report, Report No.
            09-P-0127, EPA Has Improved Its Response to Freedom of Information Act
            Requests But Further Improvement Is Needed, was issued on March 25, 2009. EPA
            is still implementing the corrective actions recommended in that report.

            We conducted our work in accordance with generally accepted government
            auditing standards issued by the Comptroller General of the United States. Those
            standards require that we plan and perform the review to obtain sufficient,
            appropriate evidence to provide a reasonable basis for our findings and
            conclusions based on our objectives. We believe the evidence obtained provides a
            reasonable basis for our findings and conclusions based upon our objectives.




11-P-0063                                                                                     2
Results
            We concluded that EPA does not have a FOIA process that results in the filtering
            of requests by political appointees. Generally, political appointees are not
            involved in the FOIA process, either by policy or in practice. With few
            exceptions, information is released at the lowest practicable level, which EPA
            permits. Political appointees are usually involved only to sign denials or partial
            denials, as was the case in 2 of the 11 offices that we reviewed.

            Of the 50 FOIA requests in our sample, political appointees were involved in only
            7 of them. In two cases, political appointees were asked to search for responsive
            records. In four cases, a political appointee signed the response letter because the
            request resulted in partial denial of information. In one case, a political appointee
            signed the response letter even though all records were given to the requester,
            which was done at the discretion of the FOIA coordinator and was not directed by
            the political appointee.

            Requests Are Not Filtered by Political Appointees

            FOIA staff at headquarters and the regions are not political appointees. They
            review FOIA requests to determine who in their office might have responsive
            records. The organizational location of the FOIA staff varied across the 11 major
            offices we reviewed. Of the 11 FOIA officers and coordinators interviewed, 2 (for
            the Office of Air and Radiation and the Office of Enforcement and Compliance
            Assurance) work in the immediate office of the assistant administrator (a political
            appointee). However, these two coordinators have a process that is similar to the
            other nine offices that we reviewed; they assign all requests to staff without the
            involvement of the assistant administrator, and neither office specifies a role for
            political appointees in the FOIA process.

            Staff Throughout EPA Collect Relevant Records

            The FOIA officers and coordinators ask EPA offices with responsive records to
            provide them. Two of the sampled FOIA requests involved political appointees
            searching for records. However, in both cases, office staff searched for relevant
            records and forwarded what they had to the response coordinator for further
            action. The political appointee had no further involvement with the request.

            Political Appointees Sign Denial Letters For Two Offices

            Two of the 11 major offices we reviewed (Region 3 and Office of the Executive
            Secretariat, in the Office of the Administrator) had a political appointee sign all
            denial and partial denial response letters. Region 3 policy requires the regional
            administrator to sign all denial and partial denial response letters. None of the
            eight Region 3 response documents to FOIA requests we reviewed were signed by
            a political appointee, and none involved denials. The Office of the Executive


11-P-0063                                                                                        3
            Secretariat has the director (who is a political appointee) sign all denial and partial
            denial letters. This practice ensures compliance with EPA policy that a division
            director or higher sign all denials or partial denials. The Director for the Office of
            the Executive Secretariat signed the response letters for five of the FOIA requests
            in our sample.

            FOIA Staff Keeps Management Informed

            The FOIA staff keeps EPA management informed about the FOIA process. All
            the FOIA officers and coordinators provided reports on FOIA processing to
            managers at various levels in the office. In 3 of the 11 major offices reviewed, the
            manager who received the reports was a political appointee.

            Special Cases Do Not Involve Political Filtering

            FOIA requests related to the BP oil spill are being monitored on an EPA-wide
            basis to ensure consistency in the responses due to the large number of documents
            requested and the significance of the issues involved. A staff member in the
            Office of General Counsel is notified when BP-related requests are received and
            when EPA responds. However, for BP-related requests that we reviewed, the
            response was sent to the Office of General Counsel after the information was
            released to the requester. At the time of our interviews, no political appointees
            from the Office of General Counsel were involved in processing these FOIA
            requests.

            EPA has received numerous FOIA requests related to climate change, particularly
            regarding the April 2009 endangerment finding on greenhouse gases. To ensure
            EPA offices were handling these requests consistently, an informal work group
            was formed to review records. None of the members of this work group were
            political appointees.

Conclusion
            Our analysis shows that political appointees at EPA are generally not involved in
            processing, screening, or approving FOIA requests. Even though our sample
            included only requests related to controversial subjects, political appointees were
            involved with 7 of the 50 instances reviewed. The activities of political appointees
            in the FOIA process at EPA generally include signing denials and partial denials,
            and receiving reports on FOIA processing. We found no evidence of systematic
            screening of FOIA requests by political appointees. Based on our review of their
            program, we conclude that the EPA does not have a process to filter FOIA
            requests by political appointees.




11-P-0063                                                                                        4
Agency Response and OIG Comment
            To ensure the accuracy of this report, on December 8, 2010, we provided a draft
            to the Office of Environmental Information for review. In a memorandum dated
            January 7, 2011, the Assistant Administrator for Environmental Information
            agreed with the OIG conclusions. Based on Agency comments on the draft report,
            we made some minor wording changes. This memorandum is included as
            Appendix A.




11-P-0063                                                                                 5
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                               POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                              BENEFITS (in $000s)

                                                                                                   Planned
    Rec.    Page                                                                                  Completion   Claimed    Agreed-To
    No.      No.                         Subject                       Status   Action Official      Date      Amount      Amount

                                  No recommendations




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




11-P-0063                                                                                                                             6
                                                                                     Appendix A

                                 Agency Response


                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                     OFFICE OF
                                                                             ENVIRONMENTAL INFORMATION


                                           Jan – 7 2011


MEMORANDUM

SUBJECT:              Draft Report: Congressionally Requested Inquiry Into EPA’s Handling of
                      Freedom of Information Act Requests - Project No. OPE-FY10-0027


FROM:                 Malcolm D. Jackson
                      Assistant Administrator and Chief Information Officer

TO:                   Eric Lewis
                      Director, Special Reviews
                      Office of Program Evaluation
                      Office of the Inspector General


       Thank you for the opportunity to review the draft report "Congressionally Requested
Inquiry Into EPA's Handling of Freedom of Information Act Requests," Project No. OPE-FY10-
0027.

        The U.S. Environmental Protection Agency (EPA) is committed to conducting its
business in an open and transparent manner and takes pride in the quality of customer service it
provides to Freedom of Information Act (FOIA) requesters. The Agency will continue to review
its FOIA administration activities to identify opportunities to further strengthen and enhance its
policies, procedures and processes. I understand that a few minor technical errors were
communicated to your staff and will be corrected in the final report.

       If you have any questions about EPA's FOIA Program, please feel free to contact Larry
F. Gottesman, EPA National FOIA Officer, at (202) 566-2162.




11-P-0063                                                                                         7
                                                                                Appendix B

                                    Distribution

Office of the Administrator
Assistant Administrator for Environmental Information and Chief Information Officer
Agency Followup Official (the CFO)
Agency Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Director, Office of Regional Operations
Inspector General
National FOIA Officer, Office of Environmental Information
Audit Followup Coordinator, Office of Environmental Information
Office of the Administrator FOIA Coordinator




11-P-0063                                                                                8
